IN THE SUPREME COURT OF THE UNITED STATES
-PETITIONER

Khayree SMith-El
VS

UNITED STATES SUPREME COURT-respondent
PROOF OF SERVICE
,do hereby declare that i nn this date ^Z<(-2o y

I, Fhavree SMith-El
as reauired by supreme court rule 29 I have served the enclosed mot\on for

leave to proceed in forma pauperis and petition for writ of national habeas
corpus on each party to the above proceeding, or the party's counsel and
on every other person reuired to be served, by depositing an envelope
containing the above documents in the united states mail properly addressed
to each of them with first-class postage prepaid, or by delivery to a third
party commercial carrier for delivery within 3 calender days.
The names and addresses of those served are as follows:Clerk of the united
states supreme court;One 1st Street NE,washington,dc 20543
t declare under oehaltv of perjury that the foregoing is true and correct.
Executed on

In propria persona sui juris

